           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 THE SOCIAL SECURITY ADMINISTRATION’S
   SERVICE DELIVERY TO INDIVIDUALS
    AND BENEFICIARIES AFFECTED BY
     HURRICANES KATRINA AND RITA


 September 2006         A-06-06-26072




   EVALUATION
     REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                    SOCIAL SECURITY
MEMORANDUM

Date:   September 11, 2006                                                   Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration’s Service Delivery to Individuals and Beneficiaries
        Affected by Hurricanes Katrina and Rita (A-06-06-26072)


        OBJECTIVE
        Our objective was to report on the status of the Social Security Administration's (SSA)
        service delivery to individuals affected by Hurricanes Katrina and Rita and assess the
        Agency’s plans to ensure payments made under emergency procedures were
        appropriate and properly safeguarded.

        BACKGROUND
        Hurricanes Katrina and Rita struck the coastal regions of Alabama, Louisiana,
        Mississippi, and Texas in August and September 2005 leaving a trail of chaos and
        destruction. As a result, the President declared these States major disaster areas.
        Approximately 1 million beneficiaries and recipients receiving approximately
        $700 million in monthly benefit payments were affected. Over 1,200 SSA employees
        were displaced, and numerous SSA facilities were damaged and left inoperable.

        To achieve our objectives, we reviewed SSA’s (1) emergency procedures and
        preparedness; (2) location of employees and recovery of operations; (3) service delivery
        and impact on SSA’s beneficiaries and recipients; and (4) stewardship of resources and
        funds (see Appendix B for additional information on the Scope and Methodology).
Page 2 – The Commissioner




               Figure 1: SSA sign at the New Orleans East District Office


RESULTS OF REVIEW

SSA took proactive steps to ensure individuals affected by the hurricanes received
continued service. SSA’s policies contain general emergency procedures that address
the Agency’s authority and flexibility to take specific emergency actions that may be
dictated by the situation. SSA took adequate actions to (1) implement emergency
procedures, (2) locate employees and begin recovery of operations for facilities
damaged by the storms, (3) continue its service delivery to beneficiaries and recipients,
and (4) expend funds as needed to address emergency requirements.

However, SSA could (1) emphasize the importance and use of its emergency contact
procedures and National Emergency Toll-Free Number; (2) ensure staff follows
procedures for issuing Social Security Number (SSN) Verification printouts; and
(3) implement the use of a centralized common accounting number to track costs when
disasters occur.
Page 3 – The Commissioner

EMERGENCY PROCEDURES AND PREPAREDNESS

SSA has procedures for disaster/emergency situations that provide the Regional
Commissioner or his/her delegate the authority to invoke disaster or emergency
procedures. Once invoked, the procedures are in effect for all related claims taken
nationwide. 1 SSA has 10 regional offices and 1,332 field offices nationwide. SSA
offices have experienced numerous disasters, such as earthquakes, hurricanes, and the
terrorist attacks of September 11, 2001.

On August 28, 2005, the National Weather Service issued an alert that a major
hurricane was expected to impact the gulf coast region of the United States. The
Regional Commissioner for Region IV 2 issued emergency message reminders and
began notifying all employees of emergency procedures. SSA’s employees were
advised of local management contact numbers and SSA’s National Emergency Toll-
Free number, which employees used to obtain information on office status and report
their safety and location. The number also provided information on the use of alternate
work locations if offices remained closed for an extended period of time.




                               Figure 2: SSA Regions VI and IV

In anticipation of the hurricanes’ landfalls, the Regional Commissioner in Region VI
convened a hurricane response task force composed of senior Regional Office
managers, Area Directors, and key staff from facilities, systems, and program policy
components, to serve as an information clearinghouse and decisionmaking body.




1
  See SSA Program Operations Manual System (POMS), GN 00207.001—Disaster/Emergency
Procedure.
2
 SSA’s Region IV is comprised of Alabama, Florida, Georgia, Kentucky, Mississippi, North Carolina,
South Carolina and Tennessee.
Page 4 – The Commissioner

Additionally, since several hurricanes had previously disrupted operations in Florida,
Region IV had long-standing emergency weather procedures. For example, in a
May 2004 memorandum on Emergency Weather Procedures to all components in
Region IV, the Regional Commissioner stated:

          Advance planning and communications are the keys to minimizing
          damage from a disaster and recovering as soon as possible.
          Assessing the potential danger, preparing the office for different
          emergency scenarios, and following up with quick action following
          the event are all crucial aspects of disaster management. 3

LOCATION OF EMPLOYEES AND RECOVERY OF OPERATIONS

Displaced Employees

On July 21, 2005, SSA implemented a National
Emergency Toll-Free Number that is to be used
as an alternate means of communicating with
SSA employees and their families if an
emergency affects SSA offices and/or
employees. Each region has designated
representatives to update the message with
information about any local or regional
emergencies.                                                   Figure 3: Emergency Card

Over 1,200 employees were directly impacted by the hurricanes. While all employees
were accounted for, it took SSA several days to reach some of its employees because
they were no longer at their home addresses or their cellular telephones were not
working. SSA implemented its toll-free number on July 21, 2005, but wallet-sized cards
with the number imprinted on them had not yet been produced and distributed to all
employees. Ultimately, this number was useful in locating employees who were
displaced from their homes and relocated in several other States.

Because of the widespread impact of the hurricanes, the importance of having alternate
telephone numbers to communicate with staff was magnified. SSA has since printed
the number on a wallet-sized card.




3
    Memorandum from Regional Commissioner Paul D. Barnes to all field office components (May 2004).
Page 5 – The Commissioner

Recovery of Operations

SSA contacted Federal and State agencies across the region following the hurricanes
and took steps to restart operations to alternate sites and reestablish service to the
public. For example, SSA:

•   Issued public information items that referred evacuees and displaced families to
    mobile buildings and disaster center sites for SSA services.

•   Established an SSA service delivery presence at major evacuation shelters and
    disaster recovery centers.

•   Established portable offices in strategic locations in southern Louisiana and
    Mississippi.




                 Figure 4: Temporary Workplace in Gulfport, Mississippi

•   Established Field Office Support Units (FOSU) in Dallas and Houston and
    transferred the workload of offices impacted by the hurricanes.
Page 6 – The Commissioner

•    Issued emergency messages to staff 4 and modified some procedures to expedite
     service delivery to beneficiaries and recipients with an immediate or emergency
     need.

•    Provided an emergency 800-number to employees as well as beneficiaries and
     recipients that informed them of its temporary procedures and where to obtain
     services.




              Figure 5: Damage to the roof, Gulfport, Mississippi, District Office


Facilities and Records

SSA assessed damage caused by the hurricanes and obtained damage reports
from the Federal Emergency Management Agency (FEMA), General Services
Administration (GSA) command centers, and SSA field managers. The reports
indicated that reentry to SSA facilities might take weeks if not months since a
number of buildings were destroyed, along with the furniture, equipment, and
records used or stored in those facilities. According to SSA policy, when damage
occurs to claims or related records, recovery actions are given top priority with
the goal of quickly bringing operations back to normal with a minimum of
inconvenience to both the public and employees. 5




4
    SSA POMS, AO 03001.001—SSA Program Instructions’ Dissemination on Policy Net.
5
 SSA POMS, GN 00207.100, Disasters/Emergencies Resulting in Damage to Claims or Related
Records.
Page 7 – The Commissioner




                 Figure 6: Inside the Kenner, Louisiana, District Office

In Region VI, four offices in New Orleans sustained major damage to both the structure
and contents of the buildings, one office in Port Arthur, Texas, sustained moderate
damage to contents, and three offices in the New Orleans area sustained minimal
damage. As of January 24, 2006, three of the New Orleans offices had been declared
untenable and would not be placed back in service.
Page 8 – The Commissioner

The floodwaters significantly damaged files in the New Orleans area. About 30,000 files
at 3 locations in the New Orleans area were damaged beyond recovery. Similarly, in
Region IV, SSA’s field offices in Moss Point and Gulfport, Mississippi, reported that
facilities, records, equipment, furniture and personal effects were totally damaged or
contaminated and had to be destroyed.




         Figure 7: Inside the New Orleans, Louisiana Downtown District Office

To prevent further damage, SSA moved an estimated 35,000 records to temporary
space. In the Moss Point area, SSA reported that approximately 10,000 files were
totally damaged or contaminated and had to be destroyed. In the Gulfport area, the
damage to the active records was minimal because SSA had implemented electronic
claims processing.

SSA contracted with GSA to destroy and dispose of damaged property, ensuring the
integrity of confidential information was not compromised by taking the following
measures.

•   A contractor picked up computers in the presence of SSA supervisors. Hard drives
    were removed, “wiped,” and crushed.

•   A contracted vendor destroyed and/or recycled furniture and office equipment.
Page 9 – The Commissioner

•     A contractor destroyed documents. Background checks were conducted on all
      contractor personnel involved in the process. Before the documents were
      destroyed, SSA obtained approval to destroy the records, and the contractor
      provided Certificates of Destruction upon completion.

Additionally, SSA Office of the Inspector General Special Agents from Regions IV and
VI provided assistance during SSA’s recovery and response efforts by providing
security, assisting in damage assessment, and helping locate and contact missing
employees.

SERVICE DELIVERY AND IMPACT TO SSA’s BENEFICIARIES AND RECIPIENTS




                            Figure 8: Inside the Baton Rouge, Louisiana,
                                            District Office

A major population shift occurred in New Orleans and other areas impacted by the
hurricanes; beneficiaries and recipients moved to other Louisiana cities and adjacent
states. For example, according to news reports, the population in Baton Rouge nearly
doubled from about 228,000 to at least 450,000. Consequently, SSA field offices
experienced a large number of individuals seeking assistance. In response, SSA
detailed 171 employees from around the country to help with service demands and
implemented emergency procedures to ensure the approximately 1 million beneficiaries
and recipients in the affected areas continued to receive approximately $700 million in
monthly benefit payments (Appendix C). 6 SSA worked with FEMA, the Federal Deposit
Insurance Corporation and the U.S. Postal Service (USPS) to ensure receipt of benefit
payments. Together, the agencies set up locations for disaster victims to claim their
mail including benefit payments.




6
    The affected area was defined by the ZIP codes of the beneficiaries and recipients.
Page 10 – The Commissioner

Transfer of Impacted Workload

SSA transferred the workload of offices impacted by the hurricanes to FOSUs and
annotated claims information to identify claims related to the hurricanes. SSA’s
Region VI created its first FOSU in the Albuquerque, New Mexico, Teleservice Center
in 1994, and a second was established in New Orleans, Louisiana. These units were
created based on the Region’s prior experience in dealing with service disruption, such
as the aftermath of the Oklahoma City bombing, and to handle backlogs in SSA.
Primarily, FOSUs act as “safety valves” when SSA experiences backlogs in workload or
when other critical situations warrant temporary reassignment of workloads. In the
wake of Hurricane Katrina, the New Orleans FOSU was closed because of damage. To
ensure continued service, the Dallas Region established temporary FOSUs in Dallas
and Houston, Texas, to identify claims related to the hurricanes and transferred the
workload of offices impacted by the hurricanes to these FOSUs.

Transfer of Initial Claims

SSA reported that, as of January 20, 2006, it had received 4,884 initial claims
nationwide as a result of the hurricanes. SSA staff was instructed to annotate the
records of each claimant to ensure these applications were processed immediately.
Additionally, at the onset of Hurricane Katrina on August 29, 2005, there were
5,000 cases in the New Orleans Disability Determination Services. Of these records,
1,500 were already stored in SSA’s electronic disability claims file system. These
records were transferred to other offices to be processed. The remaining 3,500 folders
were boxed and removed from the building.

Distribution of Benefit Checks

Because of the mass evacuation and relocation of residents from the affected areas,
many beneficiaries and recipients could not receive their checks in a timely manner.
Accordingly, SSA arranged for beneficiaries to pick up their benefit payments at SSA
field offices. SSA also worked cooperatively with Treasury to accelerate the production
and release of checks going to the Katrina-related ZIP codes, and with the USPS to
establish temporary, alternate mail delivery stations at USPS facilities for pick-up of the
original, re-routed checks.

Individuals using temporary, alternate mail locations may have been asked to provide
photo identification to claim their mail. If the individual attempting to pick up a check did
not have photo identification, USPS employees were instructed, according to SSA
policy, to open the envelope and ask the individual to provide the information that is on
the check, that is, name, address, and amount of check, before releasing it.

Those beneficiaries and recipients who did not receive their benefit checks, either by
mail or electronic fund transfers (EFT), could go to any open SSA office to receive an
emergency or immediate payment to replace the full amount of their benefit payment.
Page 11 – The Commissioner

Individuals were required to complete a form acknowledging receipt of the immediate
payment. 7

Immediate Payments

While Treasury assured SSA that EFTs to financial institutions in the affected areas
were complete, SSA anticipated some individuals would be unable to access their funds
because of their relocation and/or financial institution closure or because their mail was
not deliverable. Therefore, in accordance with SSA’s emergency messages, employees
were encouraged to be flexible in issuing immediate payments.

In September and October 2005, SSA issued over 84,750 immediate payments, totaling
$45.5 million, in the affected regions. By comparison, SSA issued 22,894 immediate
payments, totaling $13.5 million nationwide in September and October 2004. SSA
worked with Treasury to establish procedures whereby financial institutions could
contact SSA’s national 800-number to verify identification. Further, SSA and Treasury
provided the beneficiaries and recipients with a form letter to take to their financial
institutions, stating the check being presented was valid.

SSA indicated it had controls in place to detect whether an EFT payment had been
made for those individuals requesting an immediate payment. Additionally, SSA stated
it could verify with Treasury that an EFT had been made to the beneficiary’s financial
institution (for Old-Age, Survivors and Disability Insurance payments only). However,
because of business closings and infrastructure damage, Treasury was unable to
contact some of the local financial institutions to confirm EFTs. Therefore, SSA decided
to bypass Treasury’s verification process, issue the immediate payments and proceed
with the overpayment process.

For payments requested because of undeliverable mail, SSA stated it implemented
controls to identify duplicate payments made during the recovery period and issued an
alert to those beneficiaries who negotiated more than one payment in a month. SSA
identified 8,100 Old-Age, Survivors and Disability Insurance beneficiaries who received
their benefits via EFT and received an immediate payment in September and
October 2005. SSA began sending notices on January 30, 2006, advising those
beneficiaries they were being charged with an overpayment.

SSA reported that it cross-referenced records to ensure that all immediate payments
were recorded properly on the Third Party Payment System as well as SSA’s
beneficiary and recipient databases. Additionally, SSA annotated its records to identify
all individuals impacted in the Katrina disaster area.




7
    Form SSA-795 Statement of Claimant or Other Person – (See Appendix D).
Page 12 – The Commissioner

SSN Verification

Some individuals impacted by the hurricanes needed an original or replacement SSN
card but did not have identification. Since an address was needed to process a request
for an original or duplicate card, and mail delivery might not have been feasible, SSA
issued emergency messages offering an alternative. The message stated that field
office employees should clearly articulate that the SSN Verification printout is as good
as an SSN card and explain the advantages of the SSN Verification printout. 8

The emergency messages further emphasized that the evidence requirements for
issuing first-time or replacement SSN cards were not changed. Individuals were asked
to answer certain questions to establish their identity. If the answers matched SSA’s
information, staff was to record this information on Statement of Claimant or Other
Person, Form SSA-795 (Appendix D), and obtain the person’s signature along with a
statement certifying that they are the person to whom the records pertain. It should be
noted that, if the numberholder could not correctly answer the identifying questions, the
SSN Verification printout should not be provided. However, during our field visits, we
learned that not all staff and individuals were completing and retaining the Form SSA-
795. As such, there was no record of the issuance of a verification printout. Therefore,
the verification printouts could have been obtained and used for illicit purposes.

STEWARDSHIP OF RESOURCES AND FUNDS

SSA reported that, in response to the hurricanes, it made approximately $2 million in
purchases from contracts and $224,000 in credit card purchases through February
2006. Most of the contract purchases were made under existing contracts and blanket
purchase agreements and were used to replace damaged computers, telephone
systems, office furniture and equipment, and provide security services (see Appendix E
for more information). We conducted a limited review of the contracts and all credit card
purchases made after Hurricane Katrina and nothing came to our attention to indicate
that purchases made were improper or unallowable; however, SSA did not have a
centralized system to account for disaster-related costs, and it may have failed to
capture some of the costs that resulted from Hurricane Katrina.

At the onset of the hurricane relief efforts, credit card purchases were not coded to track
specific expenditures and therefore it was difficult to identify costs associated with the
disaster relief efforts. To improve the tracking and review of these expenditures, SSA
issued instructions to all purchase card holders to include the words “Hurricane Katrina”
in the description of their purchases. Still, costs were not accounted for using a special




8
 See Emergency Message (EM) 05047 SEN - Disaster Procedure–SSNs for Individuals Affected by
Hurricane Katrina.
Page 13 – The Commissioner

centralized common accounting number to track the costs. To identify hurricane-related
costs, SSA requested that employees in each region annotate purchase documentation
as hurricane-related, summarize the purchases, and send the list of purchases to SSA’s
Office of Acquisition and Grants.

In the weeks after the hurricanes, Regions IV and VI established several special
common accounting numbers. Additionally, other components within SSA established
separate common accounting numbers to track costs. However, not all regions tracked
the costs associated with assisting in the hurricane efforts nor did each SSA
component. Therefore, it was difficult to readily identify all costs incurred with respect to
SSA’s hurricane response efforts.

CONCLUSION AND RECOMMENDATIONS
SSA took steps to ensure continued service delivery to individuals affected by the
hurricanes. We noted that SSA (1) began preparations in anticipation of the hurricanes
to ensure service delivery was not interrupted; (2) contacted employees and assessed
the damage and began recovery operations and establishing alternate worksites;
(3) modified some of its procedures to expedite the processing of claims, emergency
and immediate payments, and issuance of SSN Verification printouts; and
(4) implemented controls and measures designed to detect duplicate payments, track
costs associated with the hurricanes, and identify possible instances of fraud, waste and
abuse.

While SSA took these steps in responding to the hurricanes, there were several lessons
learned and areas for improvement. Accordingly, we recommend that SSA:

1. Emphasize the importance and use of its emergency contact procedures and
   National Emergency Toll-Free Number annually and prior to emergencies.

2. Ensure that staff follows procedures for issuing SSN Verification printouts.

3. Establish procedures to ensure that all costs associated with a particular disaster
   can be readily tracked and reported.
Page 14 – The Commissioner


AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix F for the full text of the
Agency’s comments.

OTHER MATTER
To follow up on possible issues resulting from the emergency response procedures, we
plan to review the process for identifying and collecting overpayments resulting from
duplicate payments issued during the storm recovery efforts and to determine whether
SSA adequately accounted for and safeguarded equipment and records disposed of
after the storms.




                                              S
                                              Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Charts

APPENDIX D – SSA Form 795 – Statement of Claimant or Other Person

APPENDIX E – Chart of Contracts

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                 Appendix A

Acronyms

EFT        Electronic Funds Transfer
FEMA       Federal Emergency Management Agency
FOSU       Field Office Support Unit
GSA        General Services Administration
OIG        Office of the Inspector General
POMS       Program Operations Manual System
SSA        Social Security Administration
SSN        Social Security Number
USPS       U.S. Postal Service
                                                                       Appendix B

Scope and Methodology
Our objective was to report on the status of the Social Security Administration's (SSA)
service delivery to individuals affected by Hurricanes Katrina and Rita and assess the
Agency’s plans to ensure payments made under emergency procedures were
appropriate and properly safeguarded.

To accomplish our objectives, we reviewed SSA’s (1) emergency procedures and
preparedness; (2) location of employees and recovery of operations; (3) service delivery
and impact to SSA’s beneficiaries and recipients; and (4) stewardship of resources and
funds. In conducting our evaluation, we:

•   Reviewed SSA’s policies and procedures and emergency messages concerning
    SSA’s hurricane efforts and identified the number of immediate payments issued.
    We did not test SSA’s control procedures or identify duplicate payments issued
    during the course of our review; however, we did discuss control procedures with
    SSA and made observations during our site visits to Baltimore, Maryland; Baton
    Rouge and New Orleans, Louisiana; and Gulfport, Mississippi.

•   Obtained data concerning all SSA contracts and all credit card purchases related to
    Hurricane Katrina through February 2006. Our review of the contract listing and
    discussions with Regional staff disclosed that contract purchases were made under
    existing contracts and blanket purchase agreements and were used to replace
    damaged computers, telephone systems, office furniture and equipment, and
    provide security services. We also reviewed the credit card purchases transaction
    listing for questionable retail providers or excessively large transaction amounts.

•   Reviewed SSA’s Emergency and Recovery Procedures.

•   Identified the number of beneficiaries and recipients impacted.

•   Examined SSA's policies and procedures temporarily amended to effectively and
    efficiently respond to the disaster.

•   Reviewed SSA’s procedures for obtaining Social Security Number Verification
    printouts.

•   Observed the condition of the facilities impacted and temporary facilities established.

•   Interviewed Headquarters, Regional, field office and Louisiana Disability
    Determination Services Personnel.



                                            B-1
•   Made site visits to Baltimore, Maryland; Baton Rouge and New Orleans, Louisiana
    and surrounding areas; Gulfport, Mississippi, and Beaumont, Dallas and Houston,
    Texas.

Our review of SSA was conducted from October 2005 to March 2006 in accordance
with Quality Standards for Inspections issued by the President’s Council on Integrity and
Efficiency.




                                          B-2
                                                                                              Appendix C

Charts
Beneficiaries and Recipients Impacted


             Total Population Impacted and Dollar Amount (Dollars are in thousands)

                Title II           Title XVI     Combined        Title II     Title XVI        Combined
Hurricane     Beneficiaries       Recipients       Total        Benefits     Payments            Total

Katrina             652,945          134,222        787,167      $531,259           $39,334      $570,593

Rita                150,405           24,735        175,140      $127,649           $10,316      $137,965

Totals              803,350          158,957        962,307      $658,908           $49,650      $708,558



Note: These numbers are based on SSA’s service areas (by ZIP code).


Immediate Payments


                     Immediate Payments (IP) Made (9/1/05 – 10/24/05)

              Title II         Title XVI   Combined       Title II      Title XVI       Combined
Region      Beneficiaries     Recipients     Total       Benefits      Payments           Total

Region IV         14,336          8,074        22,410    $8,795,382    $3,698,409      $12,493,791

Region VI         36,498         25,842        62,340   $21,070,653   $11,932,419      $33,003,072

Totals            50,834         33,916        84,750   $29,866,035   $15,630,828      $45,496,863

Prior             11,659         11,235        22,894    $7,229,171    $6,250,363      $13,479,534
Year (All
Regions)
                                              Appendix D
SSA Form 795 - Statement of Claimant or Other Person
                                                                                                                                  Appendix E

         Chart of Contracts
                                         Award         Business
     Contractor            Value          Date         Location                                         Description
Dell Marketing LP           $49,165.56    9/3/05    Round Rock, TX   Purchase of Computer Equipments - Servers and associated equipment

Dell Marketing LP           $92,212.20    9/3/05    Round Rock, TX   Purchase of Computer Equipments - Servers and associated equipment

Dell Marketing LP          $600,149.00    9/3/05    Round Rock, TX   Purchase of workstations

Dell Marketing LP           $19,735.80    9/3/05    Round Rock, TX   Purchase of Computer Equipments - Printers and associated equipment
Contractor Total           $761,262.56
FaxPlus, Inc.                $7,626.00    9/8/05    Arlington, VA    Panafax fax machines for Louisiana temp office.

Faxplus, Inc.                $5,604.00    1/3/06    Arlington, VA    Replacement fax machines for OHA sites affected by Hurricane Katrina.
Contractor Total            $13,230.00
Government                                                           Moves, adds and changes for numerous SSA Field Offices/OHA Sites affected by
Telecommunications, Inc.    $40,000.00   9/13/05    Chantilly, VA    Hurricane Katrina
Government                                                           Emergency Purchase of 8 New Replacement Phone Systems (IVX) as a result of
Telecommunications, Inc.         $0.00   10/25/05   Chantilly, VA    Hurricane Katrina
Government                                                           Emergency Purchase of 8 New Replacement Phone Systems (IVX) as a result of
Telecommunications, Inc.         $0.00   10/26/05   Chantilly, VA    Hurricane Katrina
Government                                                           Emergency purchase of new replacement phone systems as a result of Hurricane
Telecommunications, Inc.   $120,057.57   10/12/05   Chantilly, VA    Katrina
Government                                                           Emergency Purchase of 8 New Replacement Phone Systems (IVX) as a result of
Telecommunications, Inc.     ($855.00)   10/12/05   Chantilly, VA    Hurricane Katrina
Government                                                           Emergency purchase of new replacement phone systems as a result of Hurricane
Telecommunications, Inc.   $128,237.35   9/28/05    Chantilly, VA    Katrina
Government                                                           Installation of cables and jacks and connection to demarc per connections quote #
Telecommunications, Inc.     $1,421.00    9/2/05    Chantilly, VA    CNX0500992
Government                                                           Emergency Purchase of 8 New Replacement Phone Systems (IVX) as a result of
Telecommunications, Inc.   $120,912.57   9/14/05    Chantilly, VA    Hurricane Katrina
Government                                                           Emergency purchase of 8 new replacement phone systems (IVX) as a result of
Telecommunications, Inc.   $186,284.21    9/9/05    Chantilly, VA    Hurricane Katrina
Contractor Total           $596,057.70
Herman Miller, Inc.         $10,480.00    1/9/06    Zeeland, MI      Requisition 40 workstations. Cost is at Area 4 prices.
Herman Miller, Inc.        $189,514.56    2/3/06    Zeeland, MI      40 workstations. Installation, travel costs.


                                                                     E-1
                                             Award          Business
     Contractor                Value          Date          Location                                         Description
                                                                           De-installation, installer hours, storage, tractor and trailer rental, containers and
Herman Miller, Inc.            $66,221.00    12/2/2005   Zeeland, MI       estimated travel for Pembroke Pines (Hollywood), FL #D260
                                                                           Metairie, LA OR62 Process A - Initial Design Services for this office which will be
Herman Miller, Inc.             $9,802.00     11/7/05    Zeeland, MI       receiving HMI furniture for the first time. Cost is at Geographic Area 8 Prices.
Contractor Total              $276,017.56
Jarvis Construction Cos.        $3,500.00     9/15/05    Mosspoint, MS     Shred and Dispose of documents. Shred, bag and dump at the landfill
Contractor Total                $3,500.00
JPMorgan Chase Bank            $36,800.00     9/22/05    New York, NY      Additional Contract Line Items for Third Party Payment System
Contractor Total               $36,800.00
Kentuckiana Foam, Inc           $6,132.70      9/8/05    Louisville, KY    Chairs for Hurricane Katrina operations
Contractor Total                $6,132.70
Lexmark International         $142,642.50      9/3/05    Rockville, MD     Purchase of printers and associated equipment.
Lexmark International          $55,602.60      9/7/05    Rockville, MD     Purchase of printers and associated equipment.
  Contractor Total            $198,245.10
DataTel of Louisiana, Inc.      $4,000.00     10/3/05    Baton Rouge, LA   Install security systems in 2 temporary trailers at Baton Rouge North SSA Office
Contractor Total                $4,000.00
Paragon Systems Inc.              $434.00     9/13/05    Birmingham, AL    Armed Guard Services (Additional Hours)
Contractor Total                  $434.00
Beech Construction Co           $6,500.00    12/23/05    Houston, TX       Rescue files and pack in boxes for pick-up and destruction.
Contractor Total                $6,500.00
Iron Mountain, Inc.            $27,000.00    12/22/05    Boston, MA        Provide services for offsite destruction of SSA documents
Contractor Total               $27,000.00
                                                         Mosspoint, MS     Replacement of existing mail equipment destroyed/damaged during hurricane
Pitney Bowes                   $19,229.48     9/20/05    Gulfport, MS      Katrina
Pitney Bowes                   $67,303.18     9/28/05    Annandale, VA     Katrina replacement machines (7)
Contractor Total               $86,532.66
National Bldg. Svcs Co.        $14,999.00     9/15/05    Gulfport, MS
Contractor Total               $14,999.00
SafeNet                        $22,962.00     9/28/05    Baltimore, MD     300 HA (High Assurance) SmartCard readers/writers
Contractor Total               $22,962.00
  Total                      $2,053,673.28




                                                                           E-2
                  Appendix F

Agency Comments
                                        SOCIAL SECURITY
MEMORANDUM                                                                       0608-0009904


Date:       August 24, 2006                                                      Refer To: S1J-3

To:         Patrick P. O'Carroll, Jr.
            Inspector General

From:       Larry W. Dye /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, "Social Security Administration's Service
            Delivery to Individuals and Beneficiaries Affected by Hurricanes Katrina and Rita" (A-06-06-
            26072) -- INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           content and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, on extension 54636.

           Attachment:
           SSA Response




                                                     F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S SERVICE
DELIVERY TO INDIVIDUALS AND BENEFICIARIES AFFECTED BY
HURRICANES KATRINA AND RITA” (A-06-06-26072)


Thank you for the opportunity to review and comment on the draft report. We appreciate
your efforts to evaluate the actions we took in response to Hurricanes Katrina and Rita in
August and September 2005. We are very pleased with the results of this review that
showed that we took steps to ensure continued service delivery to individuals affected by
the hurricanes. We appreciate the report’s acknowledgement that we: 1) began
preparations in anticipation of the hurricanes to ensure service delivery was not
interrupted; 2) contacted employees and assessed the damage and began recovery
operations and established alternate worksites; 3) modified some of our procedures to
expedite the processing of claims, emergency and immediate payments, and issuance of
SSN Verification printouts; and 4) implemented controls and measures designed to detect
duplicate payments, track costs associated with the hurricanes, and identify possible
instances of fraud, waste and abuse.

Below please find our responses to the specific recommendations. We look forward to
receiving the results of the follow up review of our actions to identify and recover
overpayments and the evaluation of our actions to safeguard and dispose of equipment
and records.

Recommendation 1

SSA should emphasize the importance and use of its emergency contact procedures and
National Emergency Toll Free Number annually and prior to emergencies.

Response

We agree. As part of our continuity of operations activities, staffs are apprised on an
annual basis of their offices’ emergency contact procedures. In addition, staff at the
regional and field office levels were instructed on the use of the newly established
National Emergency Toll-Free Number. By the end of August, we will issue a memo to
all regions reminding them of the Toll-Free number and how to order the ID cards that
show the number. We will work to develop a reminder to all employees of the
importance of knowing their local emergency contact procedures by the second quarter of
fiscal year 2007.

Recommendation 2

SSA should ensure that staff follows procedures for issuing Social Security number (SSN)
Verification printouts.




                                           F-2
Response

We agree. We provided instructions on when to release the SSN Verification printouts to
the field offices through an easily accessible Katrina information link in Policynet, and
will provide reminders as needed.

Recommendation 3

SSA should establish procedures to ensure that all costs associated with a particular
disaster can be readily tracked and reported.

Response

We concur with the OIG recommendation. Because actions taken by SSA in response to
hurricanes and other comparable disasters usually need to occur quickly and at the local
level (e.g., hiring contractors to help salvage files and equipment), it is usually more
effective to permit the affected component or region to initially absorb such costs in their
existing allocations. Local allocations could then be augmented from available Agency
resources once a comprehensive estimate of total costs has been compiled. We will
establish a separate disaster-related Common Accounting Number (CAN) for each major
SSA component and region to ensure costs can be captured in one place. Regarding the
Hurricane Katrina and Rita disasters, special CANs were established in affected
components shortly after the disaster occurred. Establishing permanent “disaster” CANs
will help ensure that all costs incurred can be tracked and reported.

For procurements made via purchase cards, we disseminated information to our micro-
purchase community to indicate in the award description field when allocating their
purchases in the Citibank system when the purchase was related to Hurricane Katrina or
Rita. In addition, the General Services Administration created a special field for
“National Interest Action Items” in the Federal Procurement Data System (FPDS), which
is used for reporting agency acquisitions over the micro-purchase threshold ($2,500).
Contracting Officers (CO) are required to complete an FPDS report for every contract or
purchase order awarded and if the award is in response to one of the national interest
action items, the CO will indicate that by using the special field in the report.

At the request of the Inspector General, we continue to provide a monthly report on the
most current acquisition expenditures related to the two hurricanes, using the micro-
purchase record and the FPDS reports.

Finally, we have sent 56,500 third party drafts to the regions to be kept in a secure
location for use in a disaster. We included step-by-step instructions for tracking the
drafts during a disaster.




                                            F-3
                                                                   Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Paul Davila, Director, (214) 767-6317

   Paul Wood, Audit Manager, (214) 767-0058

   Warren Wasson, Senior Auditor, (214) 767-1302

Acknowledgments
In addition to those named above the OIG would like to acknowledge the
following individuals for their assistance in providing information for this report.

   Jeanne Archuleta, Project Manager, Division of Operations Analysis and
   Customer Service Branch

   Dennis Bruhl, Project Manager for Restoration of Social Security Service in
   New Orleans

   James Carter, Area Disaster Operations Officer

   Robert Parent, Project Manager for the Office of the Regional Commissioner,
   Region VI

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-06-06-26072.
                        DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform
and Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House
of Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S.
Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and
Human Services, Education and Related Agencies, Committee on
Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
